Record No. _____

In The

Supreme Court of the United States
LUCAS KENNETH SABATINO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Lucas Kenneth Sabatino, requests leave to file the
attached Petition for a Writ of Certiorari to the United States Court of
Appeals for the Fourth Circuit without prepayment of costs and to
proceed in forma pauperis pursuant to Rule 39. The United States
Court of Appeals for the Fourth Circuit appointed counsel to represent
Petitioner. The Order appointing counsel is attached to this motion.
May 5, 2021
Respectfully Submitted,
/s/ Charles R. Brewer
Charles R. Brewer
79 Woodfin Place, Suite 206
Asheville, NC 28801
(828) 251-5002
Counsel of Record for Petitioner

USCA4 Appeal: 19-4809

Doc: 13-1

Filed: 01/28/2020

Pg: 1 of 2

FILED: January 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 19-4809
(3:19-cr-00009-MOC-DCK-1)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
LUCAS KENNETH SABATINO
Defendant - Appellant
___________________
ORDER
___________________
The court grants the motion to withdraw as counsel on appeal.
The court appoints Charles Robinson Brewer to represent Lucas Kenneth
Sabatino on appeal. Counsel is referred to the CJA Payment Memorandum and
the CJA eVoucher Page for information on appointment terms and procedures.
CJA authorization for preparation of transcript is obtained by submitting an
AUTH-24 request in the district eVoucher system. New appellate counsel must
contact district eVoucher staff for appointment to the underlying district court case
in order to submit the AUTH-24 request for district judge approval and the CJA 24

USCA4 Appeal: 19-4809

Doc: 13-1

Filed: 01/28/2020

Pg: 2 of 2

voucher for transcript payment. Counsel must also submit a Transcript Order Form
to the court reporter and district court and file the same in the court of appeals with
the docketing statement. Upon filing of the Transcript Order Form, the Fourth
Circuit will set deadlines for completion of the transcript.
CJA 20 and 21 vouchers are submitted for payment through the Fourth
Circuit's CJA eVoucher system. Upon receiving email notification of this
appointment from eVoucher, counsel may create CJA 20 and 21 vouchers for use in
maintaining time and expense records and paying for expert services.
In light of this appointment, appellate counsel is granted access to sealed
district court material, with the exception of ex parte or in camera material. Any
transcripts or record material sent to prior counsel shall be provided by prior
counsel to newly appointed counsel. If record items are not available from former
counsel, new counsel should contact the Fourth Circuit Appointments Deputy for
assistance in obtaining these items.
The court having appointed new counsel for purposes of this appeal, any
motion for further substitution of counsel shall be disfavored.
For the Court--By Direction
/s/ Patricia S. Connor, Clerk

